                Audit of the Adequacy and Compliance of
                Disclosure Statement, Revision Number 7

                               November 2003

                     Reference Number: 2004-1C-012




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         November 12, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE



       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               Audit of the Adequacy and Compliance of Disclosure Statement,
                              Revision Number 7 (Audit #20041C0207)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s revised
       disclosure statement, Revision Number 7, dated May 12, 2003. The purpose of the
       examination was to determine whether the contractor’s Civil Division’s revised
       disclosure statement, dated May 12, 2003, adequately described the cost accounting
       practices that the contractor proposed to use in performing Government contracts, and
       whether the revised practices comply with applicable Cost Accounting Standards (CAS)
       and Federal Acquisition Regulation (FAR) Part 31.
       The DCAA opined that the disclosure statement, Revision Number 7, did not adequately
       describe the contractor’s revised cost accounting practices. Additionally, the DCAA
       stated that due to significant inadequacies, the DCAA is currently unable to evaluate the
       disclosure statement revision for compliance with applicable CAS and FAR Part 31.
       The DCAA cited seven inadequacies in the contractor’s disclosed accounting practices,
       including the Material Handling Allocation Base cost elements, computer usage charges
       in relation to the General and Administrative Allocation Base, and the use of pre-
       determined billing or costing rates in the Service Center and Expense Pool Allocation
       Base. The DCAA recommends that the contractor be required to resubmit a revised
       disclosure statement.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
                                          2




If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.

Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
